nn
No.

ORIGIN
Supreme Court, U.S.
FILED

APR 2 9 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Steven Warren., Petitioner
v.

State of Indiana, Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF INDIANA

PETITION FOR WRIT-OF CERTIORARI
Steven Warren
DOC# 186258
_3038 West 850 South
Bunker Hill, IN 46914

’’ '

o'-off -' ll
H

I mv- hwi
/

r*

f.

Question(s) Presented
1) Whether a search warrant application that fails to provide any particularized nexus between an
individual's alleged drug trafficking activity and the individual's residence can provide probable
cause for a warrant to search the residence.
2) Whether a defendant who has been denied a continuance to investigate critical evidence
belatedly disclosed by the State causing a Brady Violation by not allowing the defendant to use
must prove that a proper investigation would have undermined confidence in the verdict.
3)

Whether the trial court committed reversible error during jury deliberations by offeringthe jury
at an impasse supplemental closing arguments by counsel without first consulting with the
defendant and against his objection.

4) Whether the Court of Appeals properly found that the State proved the trial court's ex parte jury
communication was harmless

z

-List of Parties
All parties appear in the caption of the case on the cover page.
Table of-Contents
Table ofAuthorities.

3

Opinion Below.

.4

Jurisdiction^

A
*.-.4-5

Statement of the Case—
Reasons for-Granting the Petition

5-12

Conclusion

12
Index of Appendices

Appendix A

Decision of Court of Appeals of Indiana.

Appendix B

Decision of State Supreme Court denying Review.

Table of Authorities

Aguflar v. Texas, 378 U.S. 108......................... ................

6

Gr-ngerich v. State, 979 NE.2d 694, 713 (Ind. App. 2012)

10

Jaggers v. State, 687 NE.2d 180 (Ind. 1997)

8

3

Long v. State, 431 NE.2d 875 (Ind. App. 1982)

9

Montgomery v. State, 901 NE.2d 515, 523 (Ind. App. 2009)

10

Payton v. New York, 445 U.S. 573 (1990)

4

Penley v. State, 734 NE.2d 287, 289 (Ind. App. 2000);

9

Reid-v.l State, 372 NE.2d 1149,1154 (1978)

9

State v. Vance, 119 NE.3d 626, 632 (Ind. App. 2019).........

7

United States v. Brown, 360 F.3d 43, 49 (1st Cir. 2005).......

5

United States v. Job, 871 F.3d 852, 864 (9th Cir. 2017).......

~.6

United State v. Laman, 930 F.2d~1183, 1188 (7th Cir. 1991)

6

U.S. v. Orozco, 576 F.3d 745 (7th Cir. 2009)........................

7

Vanway v. State, 541 NE.2d 523 (Ind. 1989)

9

Opinions Below
This decision has not been published.
Jurisdiction
This Court has jurisdiction to hear this cause because the Indiana Supreme Court denied
hearing this case-on September 3rd, 2020.
Statement of the Case
On October 25th, 2018 the State charged Warren with count 1, Possession of Cocaine
with intent to Deal, a Level 2 felony; counts 2-5, Dealing in Cocaine, Level 4 felonies; and count
6, Possession of Marijuana, a class B misdemeanor. On March 8th, 2019 the State filed aResponse to Defendant’s Motion to Suppress. On April 22nd, 2019 Warren filed a Motion to
Incorporate Supplemental Memorandum of Law, and the trial court conducted a hearing and

4

denied the motion. Warren filed a Motion for Certification of Interlocutory Order, which the trial
court denied.
On the day of trial, Warren filed a Motion to Dismiss, or in the Alternative, Continue
Jury Trial due to belated discovery. During trial, Warren moved for a mistrial because of the
denial of the continuance.
On August 26th, 2019 the jury acquitted Warren of counts 2-5 and convicted on counts 1
and 6. On September 13th, 2019, the trial court sentenced Warren on count 1 to twenty-five years
executed in the Department of Correction with five years suspended and on count 6 to 180 days
executed. The trial court ordered the sentences to run concurrently.
Reasons for Granting the Petition
This case presents an important question under the 4th Amendment that has divided both
the federal courts of appeals and state courts of last resort. The 4th Amendment guarantees that
“the right of the people to be secure in their persons, houses, papers, and effects.” The federal
courts of appeals-and state courts of last resort are sharply split on whether probable cause for a
warrant to search a residence can be established merely through evidence that an individual
residing-there has engaged in drug trafficking activity somewhere else. The Seventh Circuit, like
several other federal circuits and state courts of last resort, answers that question in the
affirmative, holding that a search warrant application need not contain any specific nexus
between the alleged drug trafficking activity and the residence to be searched. Defendant is
correct that the chief evil deterred by the fourth amendment is invasion of the home. Payton v.
New York, 445 U.S. 573 (1990).
The Appellate Court erroneously rendered a decision in upholding the search warrant by
using information from sell phone pings that were not in the four comers of the search warrant

5

affidavit. “Whether probable cause exists-in a particular case turns on the totality of the
circumstances and facts known to the officers and court when the warrant is applied for.
The reviewing, court also erroneously included in its decision to uphold the warrant that
within the totality of evidence was “the use of the same dark blue fluid to conduct each
controlled buy with the C.I. was parked in the garage on the day the warrant was executed." The
Court’s review must not be tainted by hindsight but instead should be based upon whether a
reasonable and prudent man, having the knowledge possessed by the officer at the time of arrest
would believe the defendant committed the offense.
Warren assertsthat the trial court abused its discretion when it omitted the evidence form
search, because the search warrant issued for Edgehill Avenue locked probable cause in violation
of the fourth amendment to the United States Constitution and was unreasonable under Article 1
section 11 of the Indiana Constitution. The fourth Amendment and the Indiana search and
seizure clause then-both set forth two underlying requirements that searches and seizures must be
reasonable and that probable cause-must support search warrants.
‘Warren disputed'that Edgehill Avenue was his residence and cited Merritt and Vance,
which contended that the-affidavit did not allege a-sufficient connection between him and the
place to be searched because the affidavit alleges only info gathered from the October 4th-buy in
which a stop was made in between Edgehill and the controlled buy. “There must be in other
words a nexus between the place to be searched and the evidence sought. United States v. Brown,
360 F.3d 43, 49 (1st Cir. 2005)
Detective Master’s omitted in the affidavit that a records search and license plate
registration of the defendants come back to a different address and she stated based on her
experience drug traffickers keep firearms in their residences which misled the magistrate to

fa

believe the defendant had-a nexus to the Edgenili" residence. In Aguilar v. Texas, 378 U.S. 108,
the U.S. Supreme Court-held mere affirmance of belief absent any statement of adequate
supporting facts is not enough to establish probable cause and insufficient to support a search
warrant.
The Magistrate Judge was Misled by False Information in the Affidavit
The magistrate was misled by omission and-false statements in search warrant as the
Seventh Circuit explained, it does not require such a nexus because “in the case of drug .dealers,
this circuit has recognized-evidence is likely to be found where the dealers live.” United State v.
Laman, 930 F.2d 1183, 1188 (7th Gin. 1-991)
The Third, Fourth, Eighth, Ninth and D.C. circuits similarly have both held that evidence
a defendant is engaged on drug dealing-away from his home-either alone or in conjunction only
with an officer’s general statement that evidence of drug-related crimes is often kept in the
home-canne sufficient to establish-probable cause for a warrant to search his home. United
States v. Job, 871 F.3d 852, 864-(9th Cir. 2017)
Allen County Superior Court thus field that the evidence in the affidavit pertaining to
Petitioner’s alleged drug dealer activities-combined with detective Master’s statements about her
experience with drug dealers and her belief that drug dealers store drugs and drug proceeds in
their homes, were sufficient to suggest that evidence of a crime would be found at the Edgehill
Avenue residence. To that end sufficient information must be presented to the magistrate to
allow the magistrate to determine probable cause, as his action cannot be a mere ratification of
the bare conclusions of others.

7

The Seventh Circuit has repeatedly stated that “in the case of drug dealers, evidence is
likely to be found where the dealers live” and has repeatedly upheld searches of individual’s
homes on that basis. U.S. v. Orozco, 576 F.3d 745 (7th Cir. 2009)
Detective Master’s omission from the affidavit that a record'search showed a different
address for Warren than Edgehill Avenue mislead the magistrate. The law in Indiana states:
“Whether a drug dealer is an occupant of, or simply a visitor to, a residence is information that
could conceivably affect a probable cause determination.” State v. Vance, 119 NE.3d 626, 632
(Ind. App. 2019) “The likelihood that evidence of a crime will be found at the home of a dealer
-is arguably greater than the likelihood that evidence-ofa crime will be found at a residence he
visited.” Id.
In- Vance, the police wrote the affidavit drat made it seem like that target was the same
persoirwho occupied the home-to-be searched. Id. At 632. Had the police included in the
affidavit that the targeted dealer was different than the occupant of the home he entered prior to
the buy, the magistrate would have-known there was no connection-between the residence being
-searched and the target. Id. Due to the misleading omission, the "Court refused to apply the good
faith exception. Id.
Just like in VancejXhe affidavit is misleading without the omitted information. Had the
magistrate known that Warren was not a renter, owner or even on record as living at Edgehill
Avenue, he would have realized there was not a connection between Warren and the house. The
omitted information made a weal connection even weaker.
As the Court explained in Vance, the difference between being a resident or a guest is
relevant to whether and how long a person will keep drugs at the residence. Thus any evidence
providing more information about Warrens’ connection to the house was highly relevant and

8

critical to an accurate determination of probable cause. The trial courts finding otherwise was
legally erroneous.
The trial court also relied on personal experience to find that officers did not intentionally
mislead the magistrate. But even, innocent mischaracterizations that are critical to the
determination of probable cause may bar the application of the good faith doctrine. In Jaggers v:
State, 687 NE.2d 180 (Ind. 1997) the officer implied that marijuana plants were found close to
Jaggers’ home when they were really two to six miles from the home. The Court explained that
“although perhaps an innocent mischaracterization, this representation was-critical when viewed
on the factual context” Id. at 1*84. “Placing the plots near Jaggers residence implied a iink
between Jaggers and the plats that was not supported by the evidence,” and “certainly
approaches misleading the magistrate to the degree that preventsinvocation of Leon.
“In applying-Leon, Indiana cases have stressed-the importance of accurately presenting
all relevant information to-the magistrate. Id. Not only did the police fail to explain that there
were no records of Warren renting or owning ort being associated with Edgehill address, law
enforcement wrote the affidavit as if they saw Warren deliver drugs during the controlled buy. At
the suppresslonfrearing, Detective Masters admitted that she did not see the dealer during any of
the buys.
Because Detective Masters omitted information relevant to the determination of probable
cause, the triaL court erred by applying the good faith exception.
Whether the trial court abused its discretion by denying the motion
To continue
The trial court abused its discretion in denying.the motion to continue because: 1) the
trial court’s finding that the motion to continue was a stalling tactic rather than a result of the
State’s discovery violation is against the logic and effect of the facts and circumstances in front

of the court; and 2) as a matter of law, the assurances of Warren’s fundamental right to present a
defense due to the critical nature of the calfreport outweighs the State’s vague and irrelevant
concerns over the Cl’s safety in a different case.
First, "in its reasoning for denying the motion to continue, the trial court never
acknowledge that it was the State who causea the need for the-continuance by violation a
discovery order. In Indiana, a continuance is usually the proper remedy for the State’s failure to
comply with discovery. Vanway v. State, 541 NE.2d 523 (Ind. 1989) Here the parties do not
•dispute that the State violated the discovery order by disclosing critical phone records ten months
after they had subpoenaed them.. The fact that-the prosecutor did not know of the records-means
-little. “ The State may not avoid discovery by deliberately or even negligently failing to inform
itself as to its case.” Long v. State, 431 NE.2d 875 (Ind. App. 1982) The prosecutor is charged
with the knowledge of the police. Penley v. State^ 734 NE.2d 28-7, 289 (Ind. App. 2000); Reid v.
State, 372.NE.2d 114-9, 1154 (1978)(“Only by charging the prosecution with knowledge held by
the State’ sfnvestigators can we be assured thatthe prosecutor, rather than the police will be in
control of the State’s case.”) Regardless of whether the State’s violation was intentional or
negligent, the-harm to the defense-was the~same. Hadfhere been evidence that the violation wasintentional, the proper remedy would have been dismissal. Montgomery v. State, 901 NE.2d 515,
523 (Ind. App. 2009)(affirming dismissal-due to the State’ s, belated discovery of photos in an
arson case).
Rather than-acknowledge the discovery violation and the untenable predicament it placed
the defense, the trial court found that this his motion to continue was a “stalling-tactic.” The
record does not support this assertion. There had been three continuances in Warren’s case, and
two of these were do to a State’s witness’ unavailability and one was made by the State.

W

(unopposed defense motion to continue based on ongoing discovery) This case was only tenmonths old. The triaL court’s accusation of “stalling” on thepart of the defense has no basis.
Likewise, the trial court blamed trial counsel for not being able to review the 198 pages
while also being in a murder trial. An attorney has other cases. The system must provide him a
reasonable time to review and investigate evidence. Grngerichv. State, 979 NE.2d 694, 713 (Ind.
App. 2012)(four days was insufficient time to prepare for a juvenile waiver hearing in a murder
case). Had the State disclosed a ten minute interview f a new witness, it may be reasonable to
infer that trial counsel had time to investigate. But investigating 198 pages of phone records
within a week while also preparing opening, closing, direct and cross-examinations for trial is
unreasonable and-unfair. As the defense counsel noted, a week is not enough time to go through
the records the State has had before Warren was even arrested. Montgomery 901 N.E.2d at-523
(a month-was not sufficient time to review, investigate-and consult-with expert about new
photographs of arson.)
Finally, the trial court abused'its diseretion.by finding that the State’s concern over safety
of the-CI that had nothing to-do with Warren or his case trumps Warren’s need to review the
critical phone records. Although the State broadly-asserts the Cl’s safety, neither the State nor
the trial court explain its-concern or the connection to a continuance. Nor did the trial court
consider even a short continuance.
On the hand other hand, Warren was specific about the harm to him from a denial of the
continuance. He-even proffered the discovery he received. The phone was critical to his defense
because it was used by the dealer to set up the buys. If the people being texted or called are
associated with either Warren’s brother or his uncle, it would support Warren’s argument that
they were dealing drugs. I fact, the-defense determined that one of the numbers was sent to

//

Stewart, Warren’s uncle’s girlfriend. Warren should have had the opportunity to prove the phone
belonged to someone else. Further, when and how often the Cl called the dealer may have
impeached his testimony. The harm to Warren-in-denying the continuance far outweigh and
inconvenience to the State in granting the continuance.
Whether Warren Was Prejudiced by the Denial of The Continuance
Warren was prejudiced by the denial of the continuance. First, the call detail report struck
at the heart of-his defense of misidentification. Whoever owns the phones is the person who
committed the controlled buys and possessed the cocaine. The first thing the defense told the jury
is that this is a case of misidentification.
Second, the State used the-part of the report they timely disclosed, i.e., the ping report,
offensively to prove constructive possession. Warren should have been-able to use the rest of the
report, i.e., the call log, to painta full picture and-defend himself. The -State argued-that the
phone was found by Warren’s-wallet was the target phone because the pings followed the phone
to the police station and stopped when thenhone was put on airplane mode. When the trial court
asked the parties to give a short supplemental arguments on constructive possession of the
cocaine^, the State again made this argument.
Remember the phone pings, they put him there. The same
phone that is found on top of the dresser that is found in a
drawer with his wallet. This is the phone that is taken. The
phone that is used in the buys each and every buy. It then
goesto the Fort Wayne Police department. These are his
things. This is his house. This is his cocaine.
Tr. Vol. 4,p4.
Had the State timely disclosed the full report, i.e., the ping report and the call detail log,
Warren could have investigated and connected the numbers in the log to people associated with
his uncle or brother. Connecting the phone to another would have undermined the officer’s

/2

interpretation of the ping data, which the State used to tie him to the phone while also proving
his defense of misidentification.
Warren was harmed by the denial of the continuance because the target phone was
-critical to both sides. The fact the jury only heard about half the report on the phone violated
Warren’s right to present a defense and a fair trial. Only when-the full story is heard can the jury
determine where the truth lies.
Conclusion
Wherefore, Warren request this Court Grant this request for review, and all other relief
just and proper in the premises.
Proof of Service
I certify that a copy of the foregoing Motion for Leave to Proceed in Forma Pauperis and
Petition for a Writ of Certiorari has been served upon the parties listed below by U.S. mail, first
class postage, prepaid on this Z-jTdav-of AFRlL ^-1021 ■■
Indiana Attorney General
302 West Washington Street
Indianapolis, IN'46204

-A ?. y

Steven Warren

Steven Warren
DOC# 186258
3038 West 850 South
Bunker Hill, IN 46914

/3

